<html>
<title> - DOD'S REDUCED DRUG CONTROL EFFORT: TO WHAT EXTENT AND WHY?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





       DOD'S REDUCED DRUG CONTROL EFFORT: TO WHAT EXTENT AND WHY?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 27, 2000

                               __________

                           Serial No. 106-150

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-712                     WASHINGTON : 2000

                                 ______


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 27, 2000.................................     1
Statement of:
    Ford, Jess T., Associate Director, International Relations 
      and Trade Issues, National Security and International 
      Affairs, Government Accounting Office; Ana Maria Salazar, 
      Deputy Assistant Secretary of Defense for Drug Enforcement 
      Policy and Support, Department of Defense; Rear Admiral 
      Ernest R. Riutta, Assistant Commandant for Operations, U.S. 
      Coast Guard; and Charles Stallworth, Executive Director, 
      Air and Marine Interdiction Division, U.S. Customs Service.    13
Letters, statements, et cetera, submitted for the record by:
    Ford, Jess T., Associate Director, International Relations 
      and Trade Issues, National Security and International 
      Affairs, Government Accounting Office, prepared statement 
      of.........................................................    16
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Chart concerning aircraft support........................     4
        Prepared statement of....................................     7
    Riutta, Rear Admiral Ernest R., Assistant Commandant for 
      Operations, U.S. Coast Guard, prepared statement of........    46
    Salazar, Ana Maria, Deputy Assistant Secretary of Defense for 
      Drug Enforcement Policy and Support, Department of Defense, 
      prepared statement of......................................    38
    Stallworth, Charles, Executive Director, Air and Marine 
      Interdiction Division, U.S. Customs Service, prepared 
      statement of...............................................    53

 
       DOD'S REDUCED DRUG CONTROL EFFORT: TO WHAT EXTENT AND WHY?

                              ----------                              


                       THURSDAY, JANUARY 27, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Gilman, Hutchinson, Ose, and 
Kucinich.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Charley Diaz, congressional fellow; Gil Macklin, 
professional staff member; Lisa Wandler, clerk; Cherri Branson, 
minority counsel; and Ellen Rayner, minority chief clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. We may be joined by additional Members as 
they come in from the snow and ice in beautiful Washington as 
it is recovering from the great snowstorm of this week. But I 
would like to go ahead and get started.
    I will start with an opening statement, and then we will 
have a panel of witnesses that we will hear from and again 
hopefully we will be joined by some of the other Members, but 
we do want to proceed. And we do have a vote I believe 
scheduled for 12 noon, and so we would like to conclude the 
hearing by then if possible.
    This morning's hearing is being held to examine a General 
Accounting Office report. Do we have copies available? And let 
us make sure that we have copies for all of the Members.
    This is a report which I requested last year to assess 
DOD's drug interdiction efforts.
    This report which was recently released documents a 
dramatic reduction in the DOD assets committed to reducing the 
supply of illegal drugs in America.
    In fact, while some columnists have pronounced the war on 
drugs a failure, this report confirms that the war on drugs did 
not fail, but rather was dismantled piece by piece by the 
Clinton administration beginning in 1993.
    Imagine, if you can, waging a war by slashing the command 
structure, cutting combat resources in half, dismantling 
intelligence and surveillance capabilities, ignoring strategic 
targets and treating only the wounded in battle. Imagine 
fighting a war where intelligence information sharing was 
purposely diminished and denied to both our troops and our 
allies.
    Today, we will hear that this strategy was purposefully 
implemented by this administration. As this GAO report 
concludes: ``The decline in assets DOD uses to carry out its 
counterdrug responsibilities is due, one, to lower priority 
assigned to the counterdrug mission; and, two, overall 
reductions in defense budgets and force levels.''
    Both of those commentaries appear on page 4.
    This low priority strategy has taken a terrible toll on our 
country. Indeed, shutting down America's war on drugs has had 
very grave consequences. Few wars in the history of the United 
States have taken a greater toll in lives or imposed greater 
destruction in casualties on our society. Teen use has doubled 
in the United States since 1992. I think we have a chart on 
teen use. This is an interesting chart. First, put up the 12th 
grade drug use and without objection I would like this made 
part of the record, and it does show the dramatic increase 
since 1992 in 12th grade drug use.
    Teen use as I said has doubled in the United States since 
1992; and specifically for teens aged 12 to 17, drug use rose 
by 70 percent during this time period. As pointed out in the 
report, the White House Office of National Drug Control Policy 
estimates that almost 14 million Americans now use illegal 
drugs, and illicit drugs and drug related crimes costs our 
Nation at least $110 billion annually. More tragic, however, is 
the fact that since 1993 more than 100,000 Americans have died 
from drug-related deaths, including 15,973 in 1998.
    Now, everyone who will listen to the President tonight is 
well aware of the rosy picture he will paint for our Nation in 
his attempt to define a favorable legacy during his final year 
in office. But the issue before us today and in this hearing is 
the incredible volume of illegal drugs that are pouring into 
our Nation and its horrible legacy of death and destruction.
    This GAO report confirms our worst suspicions that this 
administration has neglected our vital national interest in 
halting the flow of deadly drugs into this country. In fact, it 
even failed to implement its own national strategy. Two of the 
five critical goals of the Office of National Drug Control 
Policy strategy, which were presented to this subcommittee by 
the head of the ONDCP state--and let me state them for the 
record. Goal No. 4: shield America's air, land and sea 
frontiers from the drug threat. Goal No. 5, again from ONDCP as 
our supposed national policy in our national drug control 
strategy is to break foreign and domestic drug sources of 
supply.
    We will hear today that beginning in 1993, the 
administration's policy and its action failed to stop drugs 
before they entered the United States. The GAO findings are 
most disturbing and demonstrate a failure to protect our 
borders from an onslaught of death and destruction. The 
findings of this GAO report are just another indicator of the 
Clinton administration's lack of commitment to effectively 
combat the scourge of illegal drugs. Even the drug czar, 
General McCaffrey, has attacked the administration for doing 
too little too late in Colombia. According to a recent news 
article of December 2, 1999, General McCaffrey stated the 
situation matter of factly about Colombia, ``Colombia is out of 
control. It is a flipping nightmare.'' That is his quote, not 
mine.
    Among GAO's findings in this report are the following data 
which cover the period from 1992 to 1999: the number of flight 
hours dedicated to detecting and monitoring illicit drug 
shipments declined from approximately 46,000 to 15,000, or 68 
percent; and we have a chart up there that shows some of the 
decline in various activities.
    In addition, this report also details the number of ship 
days declined from 4,800 to 1,800, or a 62 percent decline in 
ship days dedicated to going after illegal narcotics.
    Closing down interdiction and surveillance has had serious 
consequences. One can see how Colombia has spiraled out of 
control. Recent statistics show that heroin use and deaths are 
skyrocketing in our cities. In this morning's paper is this 
article, ``Drug use explodes in rural America.'' This is not 
from a week ago or a month ago or a year ago; this is in this 
morning's paper. Let me quote the article from Joseph Califano, 
president of the National Center on Addiction and Substance 
Abuse and a former health secretary, I believe. He says, 
``drugs are now as available on Main Street as they are in 
Manhattan.'' That is his quote, and again some startling 
statistics even today in what is taking place.
    We now know that our air and maritime support for reducing 
the supply of drugs was purposely and foolishly abandoned. And 
again that is detailed in this GAO report. Even worse, this 
occurs at a time when we have lost our air base in Panama, our 
forward operating locations for surveillance in the war on 
drugs, and ceded control of this strategic area without first 
obtaining replacement bases for continued effective air 
surveillance.
    I went down and had a briefing by Southcom during the 
break, and it appears that we are still in a state of disarray 
in getting back to even a fraction of the former surveillance 
flights that we had when we had Panama in operation.
    I have another chart up here. This is from this report, and 
this appears on page 12, and I think on the chart in blue is 
the request by the Southern Command for assistance in the war 
on drugs and which was actually provided by DOD. It shows 
fiscal year 1997, 1998, and 1999. The 1999 figures are most 
startling; it shows us actually back sliding in a tremendous 
fashion. Only a small percentage of those assets are being 
provided to Southcom, again from this report. Without 
objection, I would also like to make that chart part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6712.001
    
    Mr. Mica. Events in Colombia, the source of most domestic 
heroin and cocaine, indicate that the domestic situation is 
deteriorating rapidly. Narcoguerillas are killing citizens and 
police daily. Businesses and foreigners continue to flee, while 
acts of terrorism increase and their dangers magnified, as 
evidenced by the recent terrorist disruption of power to nearly 
one-third of the country. Our subcommittee was briefed last 
week that coca production in Colombia is double or triple what 
was earlier estimated. This means that over 400 metric tons of 
coca are being produced and more cocaine than ever is moving 
into the United States. And in 1993, Colombian heroin 
production--and you have to understand this--was basically 
nonexistent. Now Colombia produces 74 percent of the heroin 
found in the United States.
    Finally, let me state that I continue to monitor military 
assistance that has been promised to source countries by this 
Congress. I am increasingly disturbed to learn of the continued 
delays that prevent assistance from reaching those who 
desperately need it.
    I am particularly concerned about the capability of the 
State Department to deliver military aid expeditiously. It is 
almost like the gang that couldn't shoot straight. I think we 
had one report during the recess, members of the panel, that 
ammunition that we have been requesting for some 3, 4 years was 
delivered to the docks at the Department of State rather than 
delivered to Colombia. It is incredible that volumes of 
ammunition could end up on the docks of the State Department 
and not to Colombia.
    Our subcommittee staff also informed me that last week we 
were told that the armor is finally on the way for the 
helicopters to Colombia, that it was shipped last week. So we 
have less than one-third of the $300 million actually in 
Colombia according to our latest staff reports and briefings 
that we had at the end of last year, and the bulk of that is in 
three Black Hawk helicopters, which I believe still sit idle 
because they are not armored and the ammunition and resources 
have not reached Colombia.
    Again, this issue needs to be very closely examined. State 
Department officials have long been obstacles in committing 
essential military assistance to countries in combating drug 
suppliers. I am now afraid the Department is responsible for 
delays that prevent assistance from reaching countries in 
immediate need, like Colombia. Colombia has sought basic 
military wares for years, including fully operational 
helicopters. The State Department advises me that their 
delivery of promised combat-ready helicopters may not be 
completed until year's end. Why the delays?
    I don't recall such delays in getting military assistance 
to Kosovo or to support our troops in Operation Desert Storm. 
This predicament illustrates why the military has reduced 
rather than enhanced its counterdrug efforts. GAO is correct in 
its assessment that reducing drug supply has not been a high 
priority of this administration. Now I understand why General 
McCaffrey does not like to describe the current efforts of the 
administration as a drug war. As a general, he knows very well 
what war is, and I may say to my colleagues, this is no war. I, 
however, do refer to our efforts in this campaign as a drug war 
because our Nation's vital interests are at stake and our 
citizens continue to die. This report documents a 7-year 
retreat.
    Whether we call this a war or not is less important than 
the recognition that we must fight it as if we expect to be 
successful. Congress has made substantial commitments to 
restart an all-out war and all-out effort against illegal 
narcotics. We must now ensure that we support cost-effective 
and proven anti-narcotics programs. At the same time we cannot 
shortchange our allies who need support and assistance.
    Making this effort a priority and fulfilling commitments to 
rid this hemisphere of drug cartels, narcoterrorism, and 
illegal drug suppliers will pay huge dividends to protect 
countless lives. Waiting to stop drugs after they reach our 
borders and only treating the wounded in battle has proven to 
be an ineffective combat technique.
    Somewhere DOD has either lost the will and the commitment 
to be engaged in this battle or has simply diverted resources. 
Today we need to find out what went wrong. Last year this 
subcommittee held 28 hearings, 16 on drug-related topics. This 
year I intend to ensure that our oversight in this area, 
whether through hearings or by other means, continues. Despite 
certain differences in approach, I know that the members of 
this subcommittee, majority and minority, feel that our 
Nation's drug control strategy and its successful 
implementation is and must remain a priority.
    I look forward to hearing from all of our witnesses today, 
and I hope that we can, through this hearing, fulfill our 
responsibilities and see that all of our agencies, including 
our military and others that are responsible for protecting our 
citizens, help in this national threat.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.002
    
    [GRAPHIC] [TIFF OMITTED] T6712.003
    
    [GRAPHIC] [TIFF OMITTED] T6712.004
    
    Mr. Mica. I am pleased that we have been joined by other 
members. If I may yield to Mr. Kucinich.
    Mr. Kucinich. I want to thank the chairman for this 
hearing. As usual, the chairman is focusing on the right issues 
and is asking the right questions about what needs to be done 
in order to effectively reduce the illegal supply of drugs in 
this country.
    I think one of the things that is very instructive in the 
GAO report is where they define the background and begin by 
outlining that almost 14 million Americans use illegal drugs 
regularly and that drug-related illness, crime and death cost 
the Nation $110 billion annually. Between 1990 and 1997 there 
was more than 100,000 drug-induced deaths in the United States. 
The United States consumes over 300 metric tons of cocaine per 
year.
    Certainly, the chairman's dedication on this issue is 
important to people of the United States, and I want to thank 
you for your holding this hearing.
    Mr. Mica. I thank the gentleman. I recognize now the 
chairman of the International Relations Committee and thank him 
for his continued support and cooperation. He is also a member 
of our panel. And also for his leadership. He just recently led 
a congressional delegation to the European Union 
Interparliamentary meetings; and one of the most lengthy 
discussions--and I was pleased to participate with him in that 
presentation with our European allies--was on the question of 
curtailing narcotics trafficking and stemming illegal 
narcotics, a very successful effort, and I compliment you on 
that and recognize you at this time.
    Mr. Gilman. Thank you, Mr. Chairman. We thank you for this 
issue of keeping illicit drugs on the front burner of our 
national agenda, and I thank you for your recent participation 
in our meetings with our European allies and European 
parliamentarians and stressing to them how important it is to 
have an effective drug war; it is not a unilateral matter, but 
it needs international cooperation.
    Mr. Chairman, today's hearing is particularly important 
since it goes to the very heart of keeping illicit drugs out of 
our own Nation. The effective capacity and the key role of our 
U.S. military as a lead agency for monitoring and detection of 
drug trafficking is vital and is an important subject matter, 
and for that reason I commend you for taking the time of our 
committee to focus our attention on this very important area.
    The appalling reduction in military assets for the war on 
drugs under the current administration is difficult for most of 
us to understand. And in reading the GAO report that you've 
recited--the report that is dated December 1999 entitled drug 
control assets DOD contributes to reducing the illegal drug 
supply have declined--there is a statement there that says DOD 
has not yet developed a set of performance measures to assess 
its effectiveness in contributing to this goal, but has taken 
some initial steps to develop some measures but DOD's level of 
support to international drug control efforts has declined 
significantly since 1992.
    I think that is a warning bell to all of us, and I hope 
that our panelists can give us some important information as to 
why this has occurred and what we should do to correct it.
    It goes on to say that the lower priority assigned to the 
counterdrug mission compared to that assigned to other military 
missions that might involve contact with hostile forces such as 
peacekeeping is one of the problems involved in the 
effectiveness of our military attention to this problem.
    There is no clearer role for the Federal Government than 
protecting our skies and shores from illicit drugs coming from 
abroad. Many of our Presidents, present and past, have said 
that these illicit drugs pose a clear threat to our national 
security as well as our national interest in keeping the well-
being of our citizens and communities in the forefront.
    One of our key foreign policy goals of the American people 
has always been keeping illicit drugs out of our Nation, and 
that certainly entails providing the necessary civilian law 
enforcement and military assets and the resources to do this 
very important and vital job. Regrettably, we have not seen 
that done in recent years.
    Today, we are facing an unprecedented onslaught of cocaine 
and heroin from Latin America onto our shores and intended for 
our communities and for, regrettably, our youngsters. According 
to the GAO report of December 1999, the DOD level of support 
and efforts in the international drug control arena has 
declined markedly. The GAO reports that the number of military 
flight hours dedicated to detecting and to monitoring illicit 
drugs have declined from 46,000 flight hours to 15,000 hours 
from 1992 to 1999. That is a 68 percent reduction in their 
monitoring efforts. And it will only get worse with the loss of 
Howard Air Force that our chairman referred to, the base in 
Panama near the heart of the drug production area, nearby Peru 
and Colombia.
    The GAO reports that on ship days dedicated to the fight 
against illicit drugs over the same period of 1992 through 1999 
has declined from about 4,800 to 1,800 ship days, or a decline 
of 62 percent. And while the administration may say some of 
these cutbacks have been made up by the Coast Guard and Customs 
Service, the obvious fact is that there has been no effective 
war on drugs by the administration at this date nor commitment 
to using our military to help our law enforcement community 
effectively fight this scourge.
    Peru is the classic case of such neglect. In the last few 
years, we witnessed nearly a 60 percent reduction in coca 
production based on an aggressive Peruvian shoot-down policy 
that depended on United States aerial surveillance and data. In 
1998 the administration took its eye off the ball and reduced 
aerial surveillance in that area, resulting in coca leaf prices 
soaring above the profitability break-even point. We can 
anticipate increased production in that area unless we turn 
that neglect around.
    Our Southcom commander summed it up when he told GAO that 
his command can only detect and monitor 15 percent of the key 
drug trafficking routes in the overall drug trafficking area, 
only some 15 percent of the time.
    Accordingly, is it any wonder that we are in trouble with 
the supply of drugs and increased use among our people? The 
administration is now scrambling with an emergency supplemental 
request to restore some regional resources for Colombia, for 
Peru and for Bolivia after that appalling neglect. As Supreme 
Court Justice Felix Frankfurter once said, ``Wisdom too often 
never comes, and one ought not reject it merely because it 
comes late.''
    Mr. Chairman, we look forward to the testimony of the 
witnesses you have assembled today, and we thank you again for 
providing us with this opportunity.
    Mr. Mica. Thank you. I thank Mr. Gilman and recognize now 
the gentleman from Arkansas, Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman: I appreciate your 
leadership throughout the congressional break in holding 
hearings across the country and following up in this Congress 
on the concern about our interdiction efforts and the 
Department of Defense assets.
    I traveled to Mexico and Panama during the break and toured 
that region and received briefings from our officials there. 
Let me tell just one simple story. When I was in Mexico, in the 
Guadalajara area, our agents told me about intelligence 
information that they have received in which there was a ship 
on the West Coast which was allegedly transporting large 
quantities of narcotics and they simply did not have the assets 
in order to go and try to find that ship. This was good 
intelligence information, and it is one small example of the 
problem that we are discussing in this hearing. I have read the 
Department of Defense report and the testimony that will be 
presented. I want you to know that I have read this testimony 
even though I have to leave.
    Do we have a copy of the testimony of Ms. Salazar? I would 
like to make sure that I have that even though I might not be 
here to hear that. Thank you.
    Mr. Mica. Thank you. I recognize the gentleman from 
California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. As always, it is a 
pleasure to be here with you. You are indeed one of our leaders 
on this issue. I am looking forward to this testimony today. I 
find it interesting that if we were engaged in a military 
conflict that was in effect arguably costing as many lives 
overseas as this problem costs domestically, this would be 
getting no shortage--this issue would have more resources than 
shown on this board.
    So I am here today interested in an explanation as to why 
it is on an issue arguably where we have over 10,000 Americans 
dying every year, we have a situation where we have declining 
resources committed to trying to solve it.
    Mr. Mica. I thank the gentleman. Before some of the members 
depart--and I know that they will be in and out today--we did 
conduct during the recess a hearing in New York City at the 
request of Mr. Towns.
    We had scheduled one for yesterday in Baltimore for Mr. 
Cummings and that was canceled because of the snow. We are 
working with our colleagues on the other side to reschedule 
that possibly for the 28th, the afternoon of the 28th. You 
might circle your calendar.
    We have a horrible problem in Baltimore, which experienced 
7 or 8 years of liberalization, now has 60,000 heroin addicts, 
a decline in population and the other effects. We are going to 
try to reschedule that very important hearing.
    And then March 6, Monday, we will be in Sacramento. Mr. Ose 
has requested a hearing in his district on the narcotics use 
issue, and then we will go to San Diego at the request of Mr. 
Bilbray for a Southwest border hearing.
    And Mrs. Mink has requested a hearing and we have put that 
off for a year. She is our ranking member. That is scheduled 
now for the Monday after St. Patrick's Day in Honolulu, and 
that is a long way out and a long way back which I found in 
scheduling. So I just advise the members of those requested 
member field hearings and thank you.
    There being no further opening statements at this time, I 
would like to introduce our panel and witnesses today. First is 
Mr. Jess T. Ford, who is the Associate Director of 
International Relations and Trade Issues, National Security and 
International Affairs of the General Accounting Office. Second 
is Ms. Ana Maria Salazar, Deputy Assistant Secretary of Defense 
for Drug Enforcement Policy and Support for the Department of 
Defense.
    The third is Rear Admiral Ernest Riutta, and he is 
Assistant Commandant for operations with the U.S. Coast Guard.
    The fourth witness and panelist is Mr. Charles Stallworth. 
He is the Executive Director for Air and Maritime Interdiction 
Division of the U.S. Customs Service.
    Some of you have been here before, and some of you have 
not. Our panel is an investigation and oversight. Specifically, 
we are part of the Government Reform Committee. In that light, 
we do swear in all of our panelists and witnesses under oath, 
and so if you would stand at this time and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses all answered in the affirmative. 
Again for those appearing for the first time, we do try to 
limit your statements to 5 minutes, your oral statements. You 
can summarize a lengthy statement. Upon request, we will enter 
into the record any lengthy documentation or other materials 
requested.
    With that, I will first welcome--and we have the GAO 
report, which I requested along with Charles Grassley, chairman 
of the Caucus on International Narcotics Control, and the 
response by the GAO; and I am going to recognize Jess T. Ford 
with GAO to review this report for the subcommittee. You are 
recognized.

 STATEMENTS OF JESS T. FORD, ASSOCIATE DIRECTOR, INTERNATIONAL 
RELATIONS AND TRADE ISSUES, NATIONAL SECURITY AND INTERNATIONAL 
   AFFAIRS, GOVERNMENT ACCOUNTING OFFICE; ANA MARIA SALAZAR, 
  DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR DRUG ENFORCEMENT 
POLICY AND SUPPORT, DEPARTMENT OF DEFENSE; REAR ADMIRAL ERNEST 
  R. RIUTTA, ASSISTANT COMMANDANT FOR OPERATIONS, U.S. COAST 
  GUARD; AND CHARLES STALLWORTH, EXECUTIVE DIRECTOR, AIR AND 
       MARINE INTERDICTION DIVISION, U.S. CUSTOMS SERVICE

    Mr. Ford. Thank you very much, Mr. Chairman and members of 
the subcommittee. I am pleased to be here today to discuss our 
work on DOD's contribution to reducing the supply of illegal 
drugs entering the United States. My statement is based on our 
December 1999 report, which was requested by your subcommittee 
and the Senate Caucus on International Narcotics and Control.
    This report concentrates primarily on DOD support for 
international drug control efforts. Today, I plan to cover 
three main points. First, I will discuss the decline in DOD's 
aerial and maritime support allocated to counterdrug activities 
from fiscal years 1992 through 1999. I will also discuss some 
of the consequences and reasons for those declines.
    Second, I will discuss the obstacles that DOD faces in 
helping foreign governments counter illegal drug activities.
    Third, I will also briefly discuss DOD's counterdrug 
strategy and the need for performance measures to judge its 
counterdrug program effectiveness.
    The Department of Defense has lead responsibility for 
aerial and maritime detection and monitoring of illegal drug 
shipments to the United States. It also provides assistance and 
training to foreign governments to combat drug trafficking 
activities. DOD supplies ships, aircraft, and radar to detect 
drug shipments and train equipment and other assistance to 
foreign governments. DOD's counterdrug activities support the 
efforts of the U.S. law enforcement agencies such as the 
Customs Service and Coast Guard, and also foreign governments 
to stem the flow of illegal drugs. In fiscal year 1998, DOD 
spent about $635 million to support these supply reduction 
efforts.
    Since 1992, DOD's level of support to counterdrug 
trafficking in Central and South America and the Caribbean has 
significantly declined. For example, the number of flight hours 
devoted to counterdrug missions declined 68 percent and the 
number of ship days fell 62 percent from 1992 to 1999. In 
fiscal year 1999 U.S. Southern Command reported that DOD was 
unable to meet 57 percent of the command's request for 
intelligence surveillance and reconnaissance flights to support 
its detection and monitoring responsibilities.
    According to the Southern Command, the lack of assets hurt 
their ability to quickly respond to changing drug trafficking 
patterns. As a result, coverage in some key drug trafficking 
routes to the United States is lower, leaving gaps in detection 
areas. For example, United States officials in Peru told us 
that since late 1997, there has been little or no aerial 
support to air interdiction operations between Peru and 
Colombia. In the eastern Pacific, a key threat area, DOD was 
unable to sustain its support in 1997 and 1998 to successful 
interdiction operations due to a lack of available assets.
    DOD acknowledges that its coverage in key drug trafficking 
areas in South America has gaps. DOD ascribes the decline in 
its support to the lower priority of counterdrug missions as 
compared to other missions such as war peacekeeping and 
training as well as decreases in its overall budget and force 
structure during the 1990's. DOD believes that while the level 
of assets has declined, its overall operations are more 
efficient than in the past.
    However, DOD faces obstacles in providing support to 
foreign governments in counterdrug efforts. Over the years we 
have raised concerns about the limit capabilities of the 
foreign military and law enforcement organizations to operate 
and repair equipment and effectively use the training provided 
by DOD. For example, one concern we raised in our December 1999 
report involved the capacity of the Peruvian police to operate 
and maintain boats to be used for counterdrug river operations.
    Other concerns include human rights and intelligence 
sharing. DOD cannot give training support to some foreign 
military units, nor can it share intelligence information with 
certain foreign counterdrug organizations because of their 
record on human rights abuses and evidence of corruption in 
these organizations. Finally, Mr. Chairman, DOD has set plans 
and strategies that directly supports the goals of the Office 
of National Drug Control Policy. For example, DOD has developed 
a 5-year counterdrug plan that broadly describes the military 
personnel and assets that it will provide to further these 
goals.
    At the regional level, the U.S. Southern Command has a 
counterdrug campaign plan designed to execute its counterdrug 
activities. However, DOD does not have a set of performance 
measures to evaluate its counterdrug activities. In our 1999 
report, we recommended that DOD develop such measures, and they 
have begun to do so.
    Mr. Chairman, members of the subcommittee, that concludes 
my summary. I would be happy to answer any questions you may 
have.
    Mr. Mica. Thank you. We will hold questions until we have 
heard from all of panelists.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.005
    
    [GRAPHIC] [TIFF OMITTED] T6712.006
    
    [GRAPHIC] [TIFF OMITTED] T6712.007
    
    [GRAPHIC] [TIFF OMITTED] T6712.008
    
    [GRAPHIC] [TIFF OMITTED] T6712.009
    
    [GRAPHIC] [TIFF OMITTED] T6712.010
    
    [GRAPHIC] [TIFF OMITTED] T6712.011
    
    [GRAPHIC] [TIFF OMITTED] T6712.012
    
    [GRAPHIC] [TIFF OMITTED] T6712.013
    
    [GRAPHIC] [TIFF OMITTED] T6712.014
    
    [GRAPHIC] [TIFF OMITTED] T6712.015
    
    [GRAPHIC] [TIFF OMITTED] T6712.016
    
    [GRAPHIC] [TIFF OMITTED] T6712.017
    
    [GRAPHIC] [TIFF OMITTED] T6712.018
    
    [GRAPHIC] [TIFF OMITTED] T6712.019
    
    [GRAPHIC] [TIFF OMITTED] T6712.020
    
    [GRAPHIC] [TIFF OMITTED] T6712.021
    
    [GRAPHIC] [TIFF OMITTED] T6712.022
    
    [GRAPHIC] [TIFF OMITTED] T6712.023
    
    Mr. Mica. I would now like to recognize Ms. Ana Maria 
Salazar, who is the Deputy Assistant Secretary of Defense for 
Drug Enforcement Policy and Support, Department of Defense.
    Ms. Salazar. Thank you, Mr. Chairman. As you pointed out, 
we have also had some problems with the weather in trying to--
although many of us did go to work in the last few days, we are 
unable to provide a written statement. We will provide in the 
next 2 days a written statement for the record.
    Mr. Mica. If you will, submit that to the committee. We 
will leave the record open for at least 10 days, and hopefully 
your written testimony will be provided to the subcommittee 
before then.
    Ms. Salazar. Thank you, Mr. Chairman.
    I appreciate the opportunity to come again and testify 
before this subcommittee and to share DOD's perspective on the 
recently released GAO report titled, ``Assets DOD Contributes 
to Reducing the Illegal Drug Supply Have Declined.''
    The Department is finalizing our formal response. However, 
I would like to take this opportunity to summarize our thoughts 
to date, regarding this report. I would like to say that we 
agree with a number of the aspects presented in the report and 
we appreciate GAO's year-long efforts and work. Although there 
are a number of issues the GAO report raise regarding DOD, I 
must note that the GAO did not find that the Department was not 
continuing to effectively carry out its congressional mandate 
for counterdrug missions.
    In the report, the GAO makes a single and very important 
recommendation. DOD needs to develop more fully its measures of 
effectiveness in order to adequately assess its contributions 
to the counterdrug detection and monitoring efforts. We agree 
that this is a legitimate concern, and the Department is 
working with Joint Interagency Task Force East and Joint 
Interagency Task Force West to develop these measures.
    However, the difficulty of developing measures of 
effectiveness cannot be understated. This is evidenced in a 
1993 GAO report which identifies the difficulty of developing 
quantitative measures for the detection of the monitoring 
missions. Nonetheless, the Department of Defense has not 
neglected this area, and we are currently funding a 
consolidated counterdrug data base which involves efforts by 
all of the agencies involved in the counterdrug efforts. This 
data base has served us as a statistical foundation for a 
number of interagency products to analyze the illegal flow of 
cocaine from South America, and you may have seen some of those 
products. We use this data base to produce the cocaine 
movement, the semiannual report that comes out on an annual 
basis and is used to make strategy decisions as to how to 
proceed with certain missions.
    We also use this data to evaluate the performance of our 
systems in executing the counterdrug detection and monitoring 
missions. The data shows that the interagency success in 
detecting and monitoring airborne cocaine trafficking events in 
the transit zone increased from 68 percent of known smuggling 
events in fiscal year 1995 when we started collecting this data 
to 91 percent in fiscal year 1999.
    Other major issues addressed in the report with regards to 
the counterdrug efforts since 1992; and they focus, as my GAO 
colleague stated, in two particular areas, the OPTEMPO and the 
dollars. The analysis of the report focuses on these two issues 
in looking at the number of flying hours or ship days devoted 
to the monitoring and detection of illicit drug shipments and 
the size of the DOD budget. And as he stated, there has been a 
reduction on both of these issues.
    However, I would like to suggest that these areas must be 
considered in the context of what has happened since 1992. 
There has been an ongoing debate over two administrations 
regarding the level of support DOD should provide to the 
counterdrug mission. I am just going to give you an example. In 
1993 at the height of our dedicated OPTEMPO and sizable DOD 
budget for counterdrugs, GAO recommended in its report, ``DOD's 
counterdrug flying hours and steaming days should be 
significantly reduced to bring DOD's effort more in line with 
law enforcement in host nation end game capabilities.'' this is 
a 1993 report.
    I would also like to point out in 1994 we received the 
largest budgetary cut to our counterdrug budget which was--it 
was mandated by Congress and this reduction was approximately 
$200 million. So when you look at the statistics and you see 
that our budget suddenly goes down, it is in part because of 
this budgetary reduction that we received in 1994.
    In addition to this debate, there are three other 
considerations that I believe it is important to outline. There 
have been three major changes which have occurred since 1992 to 
1999. Among them is, one, the overall decline in defense 
resources. Two, the increased competing demands from other--
from other missions for these limited assets that are used 
currently for detection and monitoring mission. And three, 
there is an evolving U.S. Government counterdrug strategy in 
light of changing trafficking threats.
    I would like to briefly touch each one of these. The 
decline in resources. Although we saw the dip as pointed out in 
the GAO report in our resource level, over the last 6 years we 
have maintained a stable funding level between $800 and $900 
million. Our ability to maintain this funding has been in part 
a result of Congress' interest in this mission, and we thank 
you for this support.
    Also I would like to point out that after the fall of the 
Berlin Wall, it was quite clear that the Department of Defense 
could expect a reduction in its force structure and funding. 
Counterdrug programs would not be exempted. We have competing 
demands, as stated by the GAO report. We also are aware that we 
would have, as we were feeling the problem of a reduction in 
force, we knew this would be compounded by the fact that the 
assets used for detection and monitoring were also important 
assets for these other missions that may involve the protection 
of United States personnel, and I think some examples were 
presented--were mentioned by another member, Bosnia, the 
Balkans, northern watch, southern watch.
    However, the Department has never neglected its counterdrug 
congressional mandate responsibilities. Instead, we have looked 
for different ways to meet these responsibilities in an era of 
reduced resources, and this is what we have done. And many of 
these issues have already been--and programs have been 
indicated by the GAO report.
    Since 1992, we have fielded a number of highly 
sophisticated air, ground, and monitoring detection systems. 
These include two ROTHRs and ground-based radars. We have 
upgraded various systems for this new role of counterdrugs. We 
have used patrol coastal vessels and TAGO ships to support 
transit zone interdiction activities. We have also modified the 
P-3 aircraft for its counterdrug mission. We have also 
increased our direct support to host nations to assist them in 
increasing their end-game capabilities, and you may have seen a 
report in the newspaper today where we currently have a team of 
SEALS that are training with Colombians in order to prove their 
capability of interdicting drugs.
    Also, our Riverine program, which I believe you are very 
aware of, is another example of the type of programs that we 
are currently--that are going the way that we are assisting the 
Colombians. We have increased our information sharing with law 
enforcement, and we also are looking for ways to be able to 
replace the loss of Howard Base by the installation of new 
forward-operating locations in different parts of the source 
zone and the transit zone.
    In closing, I would like to conclude my remarks 
highlighting the constant balancing act we perform at DOD. On 
the one hand, we recognize the importance of DOD's support to 
the law enforcement community so they can adequately execute 
their role in the counterdrug efforts. However, in an age of 
reduction in force, in an age where we see law enforcement 
participating more and more with assets in the detection 
monitoring, we also have the responsibility of making sure that 
the armed forces' primary role is not affected. Once again, I 
want to assure you and this subcommittee that DOD has not lost 
its will to its commitment to the counterdrug mission in 
fulfilling our responsibility to the American people.
    Thank you very much, and I look forward to answering any of 
your questions.
    Mr. Mica. Thank you, and we will have questions when we 
have heard from all of our witnesses.
    [The prepared statement of Ms. Salazar follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.024
    
    [GRAPHIC] [TIFF OMITTED] T6712.025
    
    [GRAPHIC] [TIFF OMITTED] T6712.026
    
    [GRAPHIC] [TIFF OMITTED] T6712.027
    
    [GRAPHIC] [TIFF OMITTED] T6712.028
    
    [GRAPHIC] [TIFF OMITTED] T6712.029
    
    Mr. Mica. The next witness is Rear Admiral Ernest Riutta, 
Assistant Commandant for Operations of the U.S. Coast Guard. 
Welcome, and you are recognized, sir.
    Admiral Riutta. Good morning, sir. Mr. Chairman, 
distinguished members of the subcommittee, I am Rear Admiral 
Riutta, Coast Guard Assistant Commandant for Operations. I 
would like to thank you for the opportunity to appear before 
you today to discuss the resource issues raised in the recent 
General Accounting Office report. Like the Department of 
Defense, our written statement has been snowbound, and with 
your permission, sir, we would like to submit that.
    Mr. Mica. Without objection, it will be made a part of the 
record.
    Admiral Riutta. Sir, in general, the Coast Guard concurs 
with the GAO report. It is true that there has been a decline 
in DOD aircraft hours and ship days over the past year. While 
at the same time there has been a Coast Guard increase in drug 
interdiction operations. However, these have not been directly 
targeted at detection and monitoring. It is true that we have 
assisted to some degree in detection and monitoring, but our 
effort in the past several years in the increase has been 
targeted at our end-game capabilities, trying to take down the 
targets that the Department of Defense has so ably brought our 
way.
    I would also like to point out that there has been, over 
the last 5 or 6 years, a significant increase in maritime drug 
smuggling. Various resource assessments have consistently 
reported shortfalls in air and service assets, and these gaps 
continue to grow. The success of an end-game effort is 
absolutely dependent on the assets that the Department of 
Defense provides. Interdiction requires a robust detection and 
monitoring capability and a credible interdiction and 
apprehension capability. We expect in the Coast Guard to be 
very challenged to try to meet the national drug control 
performance goals whose targets are to reduce the flow of drugs 
10 percent by 2002 and 20 percent by 2007. The Coast Guard's 
target is an 18.7 percent seizure rate by 2002 and a 28 percent 
seizure rate by 2007. Currently we are about 11 percent.
    The Department of Defense plays a vital role in the air and 
maritime drug interdiction. Department of Defense provides very 
capable patrol assets for detection and monitoring. By 
comparison, Coast Guard assets are old, slow, and I would 
define them as half-blind compared to what the DOD provides in 
this particular role. Navy assets also involve Coast Guard law 
enforcement potential, which greatly add to the end-game 
capability for us. The Department of Defense supports drug 
interdiction efforts through intelligence collection and 
cueing, command and control capability, training 
infrastructure, and international engagement activities. 
Clearly, these contributions cannot be replicated from within 
the law enforcement community itself.
    Coast Guard resource hours have increased over the last few 
years, but they are still less than they were 10 years ago and 
have not offset the decline in DOD assets. Some of this 
increase has been from a reallocation of effort from other 
missions, such as fisheries in New England, Alaska, and Hawaii. 
Recent readiness trends indicate that we may be very challenged 
to maintain this pace.
    Increases in our efforts are focused on end-game, and have 
been directly associated with Campaign STEEL WEB, which is a 
sequential pulse operation in the Caribbean. Although we have 
contributed some of our assets to increased detection and 
monitoring, we have not focused on that, as our focus has been 
on end-game. Our ability to continue to respond is of increased 
concern as we address some other readiness problems. Our 
operational tempo has been extremely high over the last few 
years, and our ability to maintain this is significantly in 
question. We must be able to maintain our equipment and the 
facilities and begin to recapitalize our resources for future 
mission requirements. We are addressing these modernization 
concerns through the innovative Deepwater Capability 
Replacement Project.
    In conclusion, sir, I would like to say that the declining 
resources available from DOD have impacted our ability to meet 
our national supply reduction objectives. Transit zone 
interdiction is one of the essential elements of our national 
strategy and complements other supply reduction efforts as part 
of a balanced national strategy. Finally, neither the Coast 
Guard nor other law enforcement agencies can fill the 
shortfalls created by declining numbers of the DOD assets.
    I thank you for the opportunity to discuss this important 
issue and I would be happy to answer any questions you have.
    Mr. Mica. Thank you. Again, we will hear from all of our 
witnesses after we have heard from our last panelist as far as 
questions.
    [The prepared statement of Admiral Riutta follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.030
    
    [GRAPHIC] [TIFF OMITTED] T6712.031
    
    [GRAPHIC] [TIFF OMITTED] T6712.032
    
    [GRAPHIC] [TIFF OMITTED] T6712.033
    
    [GRAPHIC] [TIFF OMITTED] T6712.034
    
    Mr. Mica. Mr. Charles Stallworth is the Executive Director 
of the Air and Maritime Interdiction Division of the U.S. 
Customs Service. Welcome, sir, and you are recognized.
    Mr. Stallworth. Thank you, sir. Good morning, Chairman 
Mica, and other distinguished members of the subcommittee. I 
will submit a formal statement that I may ask be made a part of 
the record.
    Mr. Mica. Without objection, that will be made a part of 
the record. Thank you.
    Mr. Stallworth. I will now make a few brief opening 
remarks.
    With a fleet of 114 aircraft and 88 vessels, the mission of 
the U.S. Customs Air and Marine Interdiction Division is to 
guard our Nation's borders and protect its people from the 
smuggling of narcotics and other contraband. Unlike other 
Federal programs involved in drug interdiction efforts, the 
primary mission of the Air and Marine Interdiction Division is 
drug interdiction. We carry out this commission from our 
continental boundaries, in the skies over the coca fields in 
Colombia and Peru.
    As you know, Mr. Chairman, the Department of Defense has a 
lead role for the detection and monitoring for all 
counternarcotics operations in the transit and source zones. 
Southcom has designated the Joint Interagency Task Force East, 
JIATF-East, as the controlling facility for U.S. agencies 
involved in the air and marine interdiction in its area of 
responsibilities. JIATF-East determines which assets are best 
suited to meet the program objectives. They also coordinate on 
the integration and execution of passing those assets on 
interdiction missions.
    Over the past 2 years, Customs has provided approximately 
90 percent of our P-3 operational flight hours to JIATF-East 
task missions. JIATF-East allocated 33 percent of those hours 
to source zone missions in 1998 and 35 percent in 1999. As 
additional P-3 aircraft come on-line, we are committed to 
providing more operational P-3 flight hours in support of 
JIATF-East missions. U.S. Customs also provides Citation 
tracker aircraft in the transit and source zones. Two Citations 
are based in Mexico in support of the Government of Mexico's 
drug interdiction program. Significant seizures have resulted 
from that cooperative effort, particularly in Hermosillo, a 
city in the area south of Arizona.
    Another critical component of our drug interdiction effort 
is our marine program. Smugglers are increasingly using both 
air drops and high-speed boats to move illegal drugs from South 
America through the Caribbean and on to the United States. In 
response, Commissioner Raymond W. Kelly has consolidated the 
marine assets with aviation operations to provide an integrated 
strategic and tactical response to this threat. As a primary 
force provider of detection and monitoring assets in the source 
zones, U.S. Customs is working closely with DOD to provide 
long-term solutions to the loss of Howard Air Force Base in 
Panama. Since the closure of Howard in April 1999, U.S. Customs 
has been conducting P-3 and Citation operations from Aruba. DOD 
recently negotiated a long-term agreement to use Aruba for 
forward operations. Southcom has also completed negotiations to 
provide an FOL in Manta, Ecuador. We support DOD and are 
confident that Manta will provide a viable forward operating 
location to meet our current and future requirements.
    Mr. Chairman, we thank you and other Members of Congress 
for your leadership and support. With your support, U.S. 
Customs has been able to maintain our aging aviation and marine 
fleet and begin planning the addition of assets critical to 
improve counternarcotics detection and monitoring throughout 
the Western Hemisphere. I thank the committee for the 
opportunity to appear before you today.
    [The prepared statement of Mr. Stallworth follows:]

    [GRAPHIC] [TIFF OMITTED] T6712.035
    
    [GRAPHIC] [TIFF OMITTED] T6712.036
    
    [GRAPHIC] [TIFF OMITTED] T6712.037
    
    [GRAPHIC] [TIFF OMITTED] T6712.038
    
    [GRAPHIC] [TIFF OMITTED] T6712.039
    
    Mr. Mica. I thank all of our witnesses for their testimony. 
Particularly, I want to thank the Customs Service and Coast 
Guard. I call your attention to page 14, and also to page 16, 
the charts there that show both Customs and Coast Guard. The 
Coast Guard has done an incredible job in counterdrug ship 
activities. But as I said, their mission is the end game, and I 
do notice some slight downturn from 1998 to 1999. That's 
another reason that we wanted this hearing. But at least since 
1995, we have seen some very good activity in the part of both 
of those agencies and I appreciate it. I think you have been 
handicapped by the information that we find here about DOD's 
lack of attention and emphasis on going after the mission that 
Congress has assigned, and this report details that they have 
ignored it.
    First of all, if you could put up General Wilhelm's quote. 
General Wilhelm, who I met with during the recess, is quoted in 
this report and confirmed this commentary to me when I met with 
him a few weeks ago in Miami. He said that ``command can only 
detect and monitor 15 percent of key routes in the overall drug 
trafficking area about 15 percent of the time.'' These are his 
quotes.
    Is this correct, Ms. Salazar?
    Ms. Salazar. Yes, it is correct. We are very aware of 
General Wilhelm's concerns about being able to provide the 
sufficient intelligence platforms in order for him to do his 
job, and we are responding to that concern. If you would allow 
me--and I think it is briefly mentioned in the GAO report--this 
year we are going to be providing Southcom with a number of 
assets that will be the exclusive use of General Wilhelm and 
upcoming CINCs in order to be able to support the intelligence 
collection that he requires.
    Mr. Mica. Put the other chart up there on page 12 that I 
referred to in my opening comments. We have--I can't think of 
any sessions of Congress other than the last few that have put 
more and more assets into DOD, including supplementals. We have 
requests by Southern Command and reported in this report--we 
have requests that actually seem to be ignored or diminished. 
Is this information correct on page 12, the number of requests 
and what DOD has provided, Ms. Salazar?
    Ms. Salazar. I believe it is, sir. I would have to go back 
and talk to Southcom on what was the basis of some of the 
assumptions they made.
    Mr. Mica. One of the things that you told me is you tried 
to move your assets around, according to threats. On page 17 it 
says, ``However, in late 1997, U.S. aerial support for the 
program declined. U.S. officials in Peru''--and this was 
brought out by GAO--``told us that there had been little or no 
U.S. airborne intelligence or surveillance of air traffic 
routes between Peru and Colombia since 1997, even though recent 
changes in smugglings tactics and communications have made 
sophisticated airborne surveillance increasingly important.''
    In addition, it says the United States Ambassador to Peru 
warned in an October 1998 letter to the State Department that 
reduction in air support could have a serious impact on the 
price of coca. Were you all aware of this change in pattern?
    Ms. Salazar. Absolutely. We have been in discussions with 
the Peruvian Government and the United States Embassy trying to 
understand what is that change in pattern.
    Mr. Mica. What is startling to me is I met with Southern 
Command. They haven't announced this publicly, but this details 
what was going to happen. We were told--our agencies were told 
what was going to happen. They told me that now production for 
the first time--we have been diminishing that through small 
amounts of money that we have provided since 1995 to Peru and 
Bolivia, 50 percent reduction in Bolivia, 60 percent reduction 
in Peru--now for the first time we are seeing an increase. They 
are going to report an increase in production of coca which is 
predicted here in this trafficking pattern. And it appears that 
we have not paid attention or moved our assets or had the 
flights and capability of surveillance to even assist them in 
combatting this. So now this prediction has come true.
    Ms. Salazar. There are a couple of issues here. On the one 
hand, we have raised concerns with the Peruvian Government in 
regards to the potential raise of coca leaf price. In our 
conversations with them, there is a number of things that may 
be happening. It may be because there has been increased 
flights leaving Peru. It may be because the transit of drugs 
has changed. That is, instead of using flights to bring the 
coca leaf out of Peru, they may be using both roads and 
maritime. What we are trying to understand, sir, is: why is it 
rising; how much it will rise; and what we can do for the 
Peruvians.
    Mr. Mica. The question is, the production is up that is 
predicted here. You said one of the things that you tried to 
do, again, from your testimony, is move these assets as you 
learned about it, about activities. This was clearly something 
that was pointed out to us, and it doesn't appear that we 
responded. And now we are seeing an increase in production and 
trafficking.
    Ms. Salazar. What I am trying to say, sir, is that even if 
we were able to provide the dome requirement that has been 
suggested by the Embassy, we are not too sure it would have a 
big impact on the effect on the rising price of cocaine leaf. 
We are--as I said before, we are talking to the Peruvians. They 
may need more assistance, for example, in the Riverine program 
because this coca leaf may be leaving through the rivers. It 
may be because there are trucks that are taking it out. It may 
not be necessarily through flights. So we are concerned. We are 
talking to the Peruvians, and we are also talking to our law 
enforcement colleagues; and they have been very supportive. I 
believe that Customs has provided, at least this last year, 
some support in dome support in trying to establish what is the 
flight patterns, if any, through Peru.
    Mr. Mica. We have had these predictions. We have had 
requests for Riverine equipment. I went with Speaker Hastert 
into the Peruvian jungles with some of my other colleagues, and 
they requested assistance there. We found, even as late as 
December, Riverine equipment had--the contracts had not been 
let. I think they finally had been let on some of them from 
1997; is that correct? They have been let now?
    Ms. Salazar. Yes, I believe they have.
    Mr. Mica. But they were pending from 1997. We cannot get 
the equipment or resources there, which is highlighted by this 
report; and you bring up Riverine, which is even a bigger 
disaster in my opinion. We have met with you behind closed 
doors and some of the other agencies trying to figure out why 
we were not getting our assets that Congress has appropriated 
or we have requested or even the administration has offered as 
far as surplus to Colombia. We have also discussed the problem 
of the gap now by Howard Air Force Base, my colleagues referred 
to that, and I did. What level are we up to of flights from 
Manta and Aruba? What percentage of flights are we up to right 
now this month as opposed to what we had when Howard was open 
prior to May 1999?
    Ms. Salazar. I believe we are up to about 85 percent. Now, 
I will agree with some of the statements made not only by you 
but by the GAO that many of these flights have been within the 
transit zone and that we need to increase the number of flights 
in the source zone.
    Mr. Mica. You are testifying today 85 percent?
    Ms. Salazar. Eighty-five--I am looking for the exact number 
because the last time I testified before you I was off.
    Mr. Mica. I don't think it is anywhere close to that 
according to the reports that we have had. In your testimony 
before our subcommittee last May, you stated that the over-the-
horizon radar site in Puerto Rico would be operational by 
January 2000. I believe we are in January 2000, well into it. 
What is the current status of that radar site?
    Ms. Salazar. We believe it will be March 2000 this year. We 
did not anticipate some of the hurricanes that took place, and 
it did put us back about 3 or 4 months.
    Mr. Mica. Also, during the holidays I was informed that the 
Air Force is taking down or plans to take down the aerostats, 
some in Florida. I believe Customs has one and DOD has nine, 
something like that, plus the ones in the Southwest border. 
There is great concern that the over-the-horizon radar, even if 
it is in place, I am told by technical folks, will not fill the 
gap that would be created by taking down these aerostats. What 
is the status of the aerostats?
    Ms. Salazar. We are now in discussions with the Air Force, 
sir, in trying to establish how we are going to continue 
funding the aerostats, in particular the aerostats that 
basically protect and identify the illegal threat of drugs into 
the United States. We believe that most of the aerostats are 
going to stay up. It is just an issue of funding, who is going 
to fund it, whether it be the counterdrug budget or the Air 
Force. As of recent conversations, the Air Force has been 
guided--has been instructed by the Department of Defense to 
fund the three aerostats in the Gulf Zone.
    Mr. Mica. So they will stay up? The recommendation is they 
are going to stay up?
    I think there will be other members you will be hearing 
from. I have already heard from some that are very concerned 
about this potential action, but you are telling us today they 
will stay up?
    Ms. Salazar. That is my belief, yes.
    Mr. Mica. Final question. One of the things that concerns 
me in talking with our folks out in the field or during the 
break is it appears that this drug mission--and DOD, does not 
interdict drugs. They provide intelligence and information 
surveillance which seems to be absolutely critical in the war 
on drugs. It can tell us where narcotics are being grown. It 
can tell us where planes take off that are carrying narcotics. 
It can allow our allies to do most of the combat and hands-on 
work in stopping drugs closest to their source, most cost 
effectively.
    But the thing that I picked up during the break is there 
doesn't seem to be any will, either from the Secretary of 
Defense office, or, as a policy, the U.S. Department of Defense 
or the Joint Chiefs of Staff. It appears there is just a lack 
of any effort to participate in this program. This report is 
devastating. It shows that we have put more money into DOD, and 
we have a fraction of activity to provide the vital information 
to combat any kind of a real war on drugs. Instead of getting 
better, it is getting worse. I have also heard reports of 
diversion of assets, which I won't get into at this hearing.
    What is the Secretary of Defense and what is the Department 
of Defense's policy? Are you on board with us or are you 
retreating from this battle?
    Ms. Salazar. Sir, as I stated in my remarks, the Department 
of Defense is committed to not only to the counterdrug strategy 
but being able to support our drug enforcement colleagues so 
they can perform their primary mission.
    Mr. Mica. It would be hard pressed for me to believe that 
you could come before Congress and say that when you see again 
from this report detailed by GAO that in fact there has been 
less effort on every front. I can't imagine fighting a battle 
in Kosovo or someplace where we are sending fewer surveillance 
flights out, where we are getting less information, where there 
is less participation, less cooperation with allies and we are 
not even getting assets into the arena of battle. This--I see 
why our streets and our communities are flooded with drugs 
because one of the major ingredients, which is DOD providing 
this vital information and cooperation, is not there.
    Ms. Salazar. As you stated, sir, we are one of the 
ingredients. DOD's participation in the counterdrug strategy is 
one part of the equation in order to have an effective 
counterdrug war. I like using the word ``war'' in this sense. 
But when you look at budgetary numbers and the fact that we 
were cut in 1994 and there has been a number of intents to 
bring up the budget to at least stabilize the budget at a 
number where we can appropriately provide the support required, 
not only by law enforcement but also for our domestic programs, 
I believe we have done very well, sir.
    I understand your concern in the sense that some of these 
assets have been diverted, particularly in AWACs, to other 
missions. But when we have the Secretary of Defense and the 
chairman telling us that they need these assets because they 
have U.S. personnel who may be in imminent danger--and these 
are the type of discussions that take place in the Department 
of Defense, and they make these decisions based on this type of 
information. So once again, sir, I want to reassure you that 
the Department of Defense, the Secretary of Defense, the 
chairman are committed to the counterdrug strategy and to their 
responsibilities.
    Mr. Mica. Well, I thank you. I find this hard to believe. I 
have concerns that the war on drugs has been sabotaged, and 
this report confirms my worse suspicions about that. Mr. 
Gilman, you are recognized.
    Mr. Gilman. Thank you, Mr. Chairman. Ms. Salazar, the joint 
chiefs stated that the level of DOD assets committed to 
counterdrug activities is unlikely to change. In light of that, 
how does your office intend to deal with the problems that we 
are seeing come out of Latin America?
    Ms. Salazar. We have done a number of things, sir, in 
anticipating that it would be unlikely to change. I guess we 
should explain why it is unlikely to change. As you are aware, 
there are not very many AWACs. The Cadillac premier asset for 
the detection and monitoring is the AWACs. There is not that 
many of them flying around the world. So every time we have 
missions like in the Balkans, Somalia, Iraq, these types of 
assets become premier assets.
    Mr. Gilman. Let me interrupt you. How long has it been 
since AWACs aircraft operated in and around the source 
countries in Southcom's area of responsibility?
    Ms. Salazar. Can I talk to you off-line about the specific 
numbers, sir? We will come and brief you on that.
    Mr. Gilman. Yes, but it has been a long time as I 
understand since they have operated in that area.
    Ms. Salazar. Yes. That's why in conversations with our 
colleagues from Customs we have talked about this deficiency, 
and we are trying to coordinate efforts with Customs in order 
to assure that we get the necessary coverage that the strategy 
requires.
    Mr. Gilman. I interrupted you, and you were telling us why 
the joint chiefs have said there will be no change in their 
commitment.
    Ms. Salazar. These assets, most of these assets are 
purchased or acquired based on the premier mission of the 
Department of Defense, which is defending our Nation.
    Mr. Gilman. If there is a need for more AWACs, why isn't 
there a request made for more AWACs?
    Ms. Salazar. I would talk to other persons in the 
Department of Defense, mainly the services. We depend on the 
services to tell us what their requirements are.
    Mr. Gilman. Don't you have requirements that you set forth?
    Ms. Salazar. We do, absolutely. And we set forth every 
year----
    Mr. Gilman. Have you made a request for more AWACs?
    Ms. Salazar. Absolutely, yes. And the response from the 
services has been with the numbers of assets we have right now, 
there are other requirements of higher priority.
    Mr. Gilman. So then the drug issue gets down the totem pole 
on the priority list. Is that right?
    Ms. Salazar. It has a lower priority in consideration of 
other types of missions where eminent----
    Mr. Gilman. That's what our chairman is saying, we don't 
have a high enough priority for our drug war. We look to you to 
assert yourself and insist that it be given a higher priority.
    Ms. Salazar. Sir, I have added my voice to these 
discussions. My predecessor has added his voice to these 
discussions. The main problem as I see it, as a person who has 
done counterdrug programs for a number of years now, is that 
the Department of Defense has other missions which is very 
different than, for example, our law enforcement colleagues. 
Our premier mission is not counterdrugs.
    Mr. Gilman. We gather that. Mr. Ford, you stated it is 
clear that setting of priorities is the key to getting DOD 
assets committed to the war on drugs. Whose responsibility is 
it to set the higher priority for the use of these DOD assets?
    Mr. Ford. As far as I know, that is an internal decision 
made by the Department of Defense. We didn't challenge their 
reasoning.
    Mr. Gilman. Who in the Department of Defense has that 
responsibility?
    Mr. Ford. Again, I would attribute that to the joint chiefs 
of staff, the office of the Secretary of Defense. In 
determining what their overall priorities are, they apparently 
have decided that other missions are of a higher priority than 
this one.
    Mr. Gilman. So I guess the ball that--the responsibility 
would stop at the President's desk on this of setting a higher 
priority in DOD. Would you agree with that?
    Mr. Ford. Well, to the extent that the White House is 
involved in this, I would guess at least that at General 
McCaffrey's level he would weigh in on this decision.
    Mr. Gilman. I would hope that someone would be weighing in 
on it. Let me ask you, Admiral Riutta, on Peru when are we 
going to restore aerial surveillance so we can make the shoot-
down policy more effective and drive home those coca leaf 
prices below profitability? I had a chart here that showed how 
the Peruvian leaf prices climbed dramatically after we stopped 
the surveillance from $1.50 for a kilo to $3.50. Can you tell 
us when you are going to be doing some of that?
    Mr. Stallworth. Sir, is that question for Admiral Riutta or 
for Customs----
    Mr. Gilman. Or Customs.
    Mr. Stallworth. Sir, Customs, after having meetings with 
the Peruvian delegations and having discussions with JIATF-
East, actually went on two deployments which had not been 
scheduled last year to Peru to investigate the possibility or 
try and figure out what was going on with air assets in Peru as 
far as the----
    Mr. Gilman. What is going on with those air assets?
    Mr. Stallworth. As a result of our first deployment, we 
really didn't get anything other than we did conduct training 
with the Peruvian air force and do our coordination for 
intercept. In the second deployment, which was in November, 
late November, we did look at the Bolivia-Peru border and we 
did see activity there, sir. We are still going through the 
analysis with JIATF-East on what information we did get on 
that, but there is activity.
    Mr. Gilman. Whose responsibility is it to restore the 
aerial surveillance in Peru?
    Mr. Stallworth. The responsibility is with whoever has the 
assets. We are a force provider because of the role that DOD 
has. And in fact in these deployments we had to take the 
initiative, sir, to go there. We had to go and convince DOD 
that we did want to put these aircraft there because----
    Mr. Gilman. Have we put the aircraft there?
    Mr. Stallworth. Sir, we deployed the aircraft on from 8- to 
10-day deployments there. We could not leave them there. That's 
not something that we can do at this time.
    Mr. Gilman. When did we do the 8 to 10 days?
    Mr. Stallworth. We did one in August. I don't have the 
dates right now, sir. We had another in late November 1999.
    Mr. Gilman. So between August and November there was no 
deployment; is that right?
    Mr. Stallworth. Not in Peru itself, not from Lima.
    Mr. Gilman. Since November have we had any deployment?
    Mr. Stallworth. No, sir, we are supposed to go a little bit 
later this month.
    Mr. Gilman. Haven't the Peruvian people been asking for 
more aerial coverage and what are we telling them?
    Mr. Stallworth. Yes, sir, they have. They have been 
cooperating with us as we have tried to conduct site surveys 
for different landing sites in Peru.
    Mr. Gilman. I am talking about aerial surveillance now. 
They asked for more aerial surveillance, did they not?
    Mr. Stallworth. Yes, they did.
    Mr. Gilman. We haven't done anything since November?
    Mr. Stallworth. No, sir. We have plans to go there again 
this month.
    Mr. Gilman. Plans to go in February?
    Mr. Stallworth. No, sir, this month, sir, in January.
    Mr. Gilman. Is that sufficient, to only go 3 or 4 months 
without surveillance and then go down for just a few days? Does 
that accomplish very much?
    Mr. Stallworth. Sir, again, we are force providers. We have 
limited assets, but we are doing what we can----
    Mr. Gilman. I realize you are doing what you can, but I am 
asking now, is that effective to leave that big gap of time 
without aerial surveillance?
    Mr. Stallworth. No, sir, it isn't.
    Mr. Gilman. Thank you. Mr. Stallworth, with a deteriorating 
situation or the problems of flying missions with civilian 
fields in the region have been an increasing problem, when do 
you envision, if ever, that we are going to be back to aerial 
coverage levels before we gave up the Howard Air Force Base?
    Mr. Stallworth. As to the first part of your question, 
regarding the civilian situation in Ecuador, sir, I am not at 
liberty or don't have the basic knowledge to tell you when that 
would be better. As to Manta, my understanding is that as soon 
as funding is provided that DOD will move forward as far as 
preparing that area for----
    Mr. Gilman. Has funding been requested, Mr. Stallworth, for 
Manta?
    Mr. Stallworth. Yes, sir, it has.
    Mr. Gilman. What is the status?
    Mr. Stallworth. Part of it is in the emergency supplemental 
that has been provided. I would rather DOD answer that question 
because they have more of the specifics on that, sir.
    Ms. Salazar. If you would allow me, we have included 
funding for Manta in the Colombian supplement. We have also 
included funding for Aruba and Curacao in our request. As you 
may remember, sir, we have requested MILCON construction in our 
fiscal year 2000 budget and we didn't get it, basically.
    Mr. Gilman. So how much funding has been requested now for 
Manta and the other forward bases?
    Ms. Salazar. In fiscal year 2000, we are requesting 
approximately $39 million. In fiscal year 2001, we are 
requesting, I believe--I will give you the exact number----
    Mr. Gilman. Just give us a ball park figure.
    Ms. Salazar. $100 million.
    Mr. Gilman. How long would it take you to get these forward 
bases in operation?
    Ms. Salazar. Depending on which ones and at what level, as 
was mentioned before, our priority is trying to get Manta fully 
functioning, and we have been doing that at different steps. We 
believe we are going to be flying more P-3s out of Manta in the 
next month; and then it would be fully functional, be able to 
do night flights, I believe, in about March. So we are going to 
be able to do much more than we are now. At one point we are 
going to have to do major repairs on one of the runways.
    Mr. Gilman. When do you envision that you will be back to 
aerial coverage levels prior to our giving up Howard Air Force 
Base?
    Ms. Salazar. We will probably be at that level, if not 
higher, since we are going to be doing more flights out of the 
source zone, I would say in about a year, year and a half.
    Mr. Gilman. So a year and a half to get back to the Howard 
Air Force Base level of aerial coverages; is that correct?
    Ms. Salazar. We would have an increased level, in fact. We 
would have a better coverage level----
    Mr. Gilman. How long would it take you to get back to where 
we were at the Howard Air Force level.
    Ms. Salazar. I would say a year and a half. The reason that 
I say that is we have to finish--once we are done with all of 
the infrastructure construction that we are going to be doing 
in these FOLs, once they are completely done, we will have much 
better coverage, improved coverage.
    Mr. Gilman. Have we given up our negotiation to try to 
retain our Howard Air Force Base?
    Ms. Salazar. I believe so, sir.
    Mr. Gilman. That is a dead issue?
    Ms. Salazar. We have not had conversations with the 
Panamanians on this issue.
    Mr. Gilman. I had spoken with the Panamanian President not 
too long ago, and it seemed that the door was open for further 
negotiation, but you are saying that we are not doing anything?
    Ms. Salazar. I am not aware of any conversations that are 
taking place right now, sir.
    Mr. Gilman. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Gilman. It is good to be on some 
of these panels for a number of terms because you hear 
different figures counted by different folks at different 
hearings. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. One of the questions that 
I have--and I imagine this goes to Mr. Ford--is you have a 
comment on page 15 of your report that the trafficking methods 
have primarily gone toward maritime. I look at the charts 
between the air hours and the ship days, and I am trying to 
reconcile whether or not there is an interchangeability or 
ratio of ship days that equals to so many air hours, if you 
will. Do you have any such information?
    Mr. Ford. If I understand your question, in terms of 
dealing with the maritime threat?
    Mr. Ose. Yes.
    Mr. Ford. Actually, I am going to defer to the Admiral on 
this, but basically obviously you need ships on the water to 
interdict maritime vessels, like go-fast boats, which is one of 
the major means of travel by the drug traffickers. But you also 
need some air assets. You need helicopters to be able to track 
them and you also need tracking aircraft so you can hand them 
off to someone on the ocean. I don't know what the appropriate 
ratio is. I don't want to put the Admiral on the spot, but I 
think he might know better, as this is a main Coast Guard 
responsibility.
    Clearly, the data that we show in the report indicates that 
the threat in the 1990's has generally shifted more toward 
maritime, there are more maritime-type incidents, you would 
expect to see perhaps an increase in the amount of ship days. 
But we don't see that in our data with the exception of the 
plus-up in the Coast Guard. So it seem as little anomalous to 
me as to why that situation exists.
    Mr. Ose. In that we have the information, that the 
trafficking methods have gone, if you will, to a maritime 
route, but we haven't responded with additional assets to deal 
with it? Is that your point?
    Mr. Ford. Well, the data clearly shows that the number of 
ship days that you might expect to see, to jive with the 
threat, doesn't seem to be there or at least it is not there at 
the same level of what you would expect, given the fact that 
maritime is now about three-quarters of the threat.
    Mr. Ose. Is the evidence as to the threat from the maritime 
sources unequivocal, clear?
    Mr. Ford. I think it is based on the known intelligences 
that our people have. Obviously, there could be things going on 
out there that we are not aware of. That's always the 
situation. But based on the data that the interagency community 
uses, clearly they have a rough idea of what the trends are. 
And the trend clearly has gone toward maritime.
    Mr. Ose. Admiral, would you agree with that?
    Admiral Riutta. Yes, sir, I would certainly agree with 
that. It has clearly gone maritime.
    Mr. Ose. So in response--with the exception of the Coast 
Guard that peaked in 1997, in response to evidence that our 
agencies have collected, we in effect have reduced, if I 
understand correctly, air hours in favor of ship days; but in 
fact according to the chart on page 14 of the GAO report, the 
number of ship days has also been reduced?
    Admiral Riutta. You are correct. We have reduced both. I 
would like to point out that to find go-fast you need aircraft. 
You can't offset aircraft with ships and hope to efficiently 
find these go-fasts, particularly in the eastern Pacific coming 
off the west coast of Colombia, off the west coast of Central 
America, which is a very wide open space. Just putting a few 
extra ships down there doesn't solve the problem. You need good 
aircraft coverage in order to find the targets and then you go 
after them.
    Mr. Ose. Let me go on, if I might. I appreciate you guys 
trying to quantify how to balance those assets and their use. 
One question, Ms. Salazar. One thing you kept referring to was 
a reduction in 1994 in terms of the resources committed to this 
effort. I just wanted to make sure I understood. That would 
have been a budget passed in 1993 pursuant to the President's 
request submitted in January 1993? The resources for fiscal 
year 1994 followed appropriations bills, bills passed in late 
1993?
    Ms. Salazar. Yes. This is a fiscal year 1993 
appropriations, conference report, November 9, 1993.
    Mr. Ose. I do want to point out just the interesting 
dynamic is that since the majority of the House and Senate 
changed there has been no intention or policy on the part of 
the majority now existent in the House to reduce assets. So I 
find it interesting, and I take considerable exception to a 
constant reference to a reduction in 1994 that flowed from one 
side of the aisle as opposed to the effort on this side of the 
aisle to give more assets to this effort.
    Ms. Salazar. That was not my intention. What I was trying 
to highlight to the subcommittee is that throughout the years 
there has been a bipartisan--through two administrations--
ongoing debate as to what is the level of support that the 
Department of Defense should provide to the counterdrug 
strategy. As I mentioned earlier, there was a 1993 report that 
strongly suggested that we were providing way too many flying 
hours, way too many steaming days for the detection and 
monitoring efforts. That was the recommendation in the sense of 
that report at that time.
    There have been different hearings throughout the years in 
many ways going back and forth. I sit in some of the other 
committees, the defense committees; they would suggest or they 
would--some of them would suggest that perhaps that we are 
providing too much of DOD's efforts to the counterdrug 
strategies. So the reason I did this, sir, is not to point a 
finger to one of the others, but to suggest this is an ongoing 
debate. But despite the debate and despite there has been some 
fluctuation in our budget and in the amount of resources we 
receive, we have sought different ways of trying to support 
General Wilhelm's Southcom and to support our law enforcement 
community and to support host nations in their capability to 
interdict drugs.
    Mr. Ose. If I might just make one observation. I can't help 
but go to the empirical data that indicates very clearly from 
the early 1990's to today, an increase in drug usage, increased 
mortality rate in terms of Americans using drugs, and a battle 
here about making sure sufficient resources get committed to 
that effort to combat this problem. I find it intellectually 
very challenging to balance the lives of American citizens with 
somebody's disconcernment, if you will--that's not even a 
word--but it is just very interesting to me. I get calls at 
home about this. I go home every weekend. I get calls on this 
regularly. I wanted to express that to you. I think this 
Congress is ready to give you the resources that you need to 
take this effort to the Nth degree, if I have any sense of the 
chairman and the others here.
    Ms. Salazar. We are very appreciative of that. In many 
ways, some of the pluses we have received throughout the years 
have been, thanks to the chairman, and to a number of people 
who believe that the Department of Defense should have an 
important role in the counterdrug strategy, not only in the 
international or early detection and monitoring, but also in 
our domestic programs. We are very grateful for that, sir.
    Mr. Ose. Let me ask a question. You mentioned the 
interaction to some of our host nations. We have been providing 
up until July 1999 the aircraft for Peru to monitor flights 
originating there. Unfortunately, we had a plane go down. We 
lost a number of people there. Is that aircraft or is that 
asset still being provided to the country of Peru?
    Ms. Salazar. The asset that you are talking about is an ARL 
which crashed in Colombia. Is that the asset that you are 
talking about, sir? It is an Intelligence asset. We coordinate 
the flights with host nations, and we do provide that type of 
support. However, it is also one of those premier assets that 
if there is other missions that have higher priority, the 
Department of Defense could very easily be taken away and used 
for some other mission or in different parts of the world. In 
general, we fight very hard to obtain an ARL for ARL coverage 
for the source zone.
    Mr. Ose. I guess that was a no?
    Ms. Salazar. I am going to ask someone to look at my data 
right now, but we continue to provide ARL support. What I don't 
know is if after the crash that there has been another 
deployment down there.
    Mr. Ose. Assuming there hasn't been, have there been ARL 
deployments elsewhere in the world?
    Ms. Salazar. I believe so, sir.
    Mr. Ose. I would be interested in that information. I want 
to nail down, A, have we or have we not continued to provide 
this assistance to the Colombians and Peruvians; and, B, if we 
haven't, where have those resources gone?
    Ms. Salazar. I think we would be delighted to brief you, 
not only on this particular asset but on the different assets 
and the types of capabilities they have and what other parts of 
the world they have been used. I have just been advised that 
yes, we have had an ARL deployment to the source zone since the 
crash.
    Mr. Ose. Are they flying?
    Ms. Salazar. They don't fly, sir, constantly. These are for 
all of the assets. I think my colleague from Customs was trying 
to explain. The way that we program the use of these assets is 
that decision is made that they are going to fly for 10 days, 
15 days, they go down there, they do the coverage and then they 
return. This is the way that we have been performing these 
types of deployments, as far as I know.
    Sometimes they will work out of the Nation or they will 
land there, but it is not permanent. They will basically land 
there, be there for a number of days and then return.
    Mr. Ose. Let me do a little housekeeping, if I may. The 
chairman asked for a report in late July or early August 
regarding the unfortunate crash in Colombia. And now it is 
January 27. Where is that report?
    Ms. Salazar. I will have to come back and give you further 
information. I don't know right now, sir.
    Mr. Ose. It is my recollection from our hearing in that 
time period that's just about what you told us then. I have got 
to tell you, we were in Miami and we were told the same thing. 
That is January 3. At what point is the report going to be 
here?
    Ms. Salazar. I apologize, sir. I don't have that 
information. My office is not the office that would be drafting 
that report.
    Mr. Ose. Who does?
    Ms. Salazar. I think it is probably the Secretary of the 
Army. This would be an Army report. I will come back to you, 
sir, with that information.
    Mr. Ose. Mr. Chairman, thank you for the time. Excuse me, 
I'm sorry.
    Mr. Mica. Go ahead.
    Mr. Ose. The GAO report cites, again, the shift from 
airborne to maritime using the go-fast boats. For the Admiral, 
in 1998 the Coast Guard was authorized to acquire some new 
armed helicopters to counter this new maritime activity. What 
is the current status of that effort?
    Admiral Riutta. Sir, we have deployed those armed 
helicopters on two occasions in a daylight operation. As you 
can see, this is a fairly complicated mission to put together a 
package like this. We are currently undergoing nighttime 
training, and expect to deploy them in the fairly near future 
to do a complete 7 by 24 operation down in the Caribbean.
    Mr. Ose. Are we providing any assistance to Colombia of a 
similar nature with these assets?
    Admiral Riutta. With these particular assets, not in-
country. Off the coast of Colombia they will certainly operate. 
We have a limited fielding this summer when we will get the 
assets back in theater. They will work off the coast of 
Colombia.
    Mr. Ose. One of the concerns I have is we were recently 
briefed by State OMBCP people that the administration's latest 
package of assistance to Colombia cut this out. Is that true?
    Admiral Riutta. As far as I know, it is, yes.
    Mr. Ose. It is true that it was cut out?
    Admiral Riutta. I have not seen the package; but as far as 
I know, it was reduced, yes, sir.
    Mr. Ose. As it relates to this particular program as we go 
forward, it will be ending in terms of assistance to Colombia 
of this nature?
    Admiral Riutta. This program is funded in 2000. Depending 
on the budget notions in 2001, it will continue forward.
    Mr. Ose. But the administration's proposal has been to 
remove this funding?
    Admiral Riutta. I believe the administration proposal has 
been just not to support it in the Colombian supplemental.
    Mr. Ose. That sounds like they are removing this funding. 
Now, I want to go back to the over-the-horizon radar with Mr. 
Ford. We have gaps in our coverage. We have covered 15 percent. 
That's like 2.8 percent, or something like that, of the time. 
Do the over-the-horizon radars in Puerto Rico take care of the 
gaps on the aviation routes that we are attempting to cover?
    Mr. Ford. What I know about--they are supposed to extend 
coverage down to the southern part of Colombia. I don't know 
how far it goes in terms of whether it covers the entire area 
down there, so I can't say that there will be 100 percent 
coverage in that area. The other area, I believe--ROTHR does 
not always touch, is in the eastern Pacific. I am not sure 
whether the Puerto Rico radar would cover that or not. I guess 
I have to defer that to my colleagues here. But it would 
definitely expand coverage down into the Colombia area, which 
is going to be part of our new program down there.
    Mr. Ose. Mr. Stallworth, do you have any observations on 
that, whether or not the over-the-horizon radar fills the gaps 
that we otherwise might have?
    Mr. Stallworth. I think the best answer for me at this 
point, since I don't have specific data and it hasn't--no one, 
engineers or anyone else, can assure us that it will and so I 
can't answer that question; and I would have to defer to DOD. 
But no one has assured us that it will cover the gaps. We just 
don't know.
    The design--let me say it like this. The design of the 
ROTHR is optimized for over water to bounce off the ionosphere 
and do the things it does. It is optimized for--other than the 
modifications that they might have made for it, to B-52 sized 
targets. It does not give correlated data as to identification 
friend or foe or altitude. So it is better than nothing, but it 
is not necessarily the best for the conditions. And then when 
you shoot that over the jungle or over land, we just don't know 
what it is going to bring us in results.
    Mr. Ose. That begs the question. Given the inadequacies 
that you've described, are we using something less than the 
best in terms of providing coverage? And if that is the case, 
do we have something that is better that we are not using?
    Mr. Stallworth. I would have to defer that to DOD.
    Mr. Ose. Admiral, do you have any input on this?
    Admiral Riutta. Actually, I am not an expert in ROTHR. I 
don't work in that area.
    Mr. Ose. Ms. Salazar.
    Ms. Salazar. Yes, I am also not an expert in ROTHR, but I 
do have some comments. The Puerto Rico ROTHR will actually 
provide extensive coverage--it actually covers Ecuador, goes 
down into Peru and parts of Brazil. So we will have coverage of 
an area that we did not have before.
    I think what Mr. Stallworth was trying to explain is that 
as any system, they have certain capabilities and can do 
certain things, and there are other things that they cannot do. 
There is not one single radar or asset that can basically 
satisfy all of the needs that law enforcement and DOD has in 
regards to detection and monitoring. The secret is being able 
to coordinate the existing systems, provide more systems that 
can support what we are trying to do, but at the same time 
improve our coordination not only with the end-game capability 
of law enforcement but also what the host nations have in the 
way of end games and the assets that they have.
    What I am trying to say, sir, is that the Puerto Rico ROTHR 
is going to provide us an enormously increased capability. But 
does it resolve all of our problems? No, it doesn't.
    Mr. Ose. You have been very kind, Mr. Chairman; and I yield 
back the balance of my time.
    Mr. Mica. Just in a final couple of questions, the GAO 
report highlights--and that concerns me is that there doesn't 
seem to be a coordination between the Secretary of Defense's 
DOD Office of National Drug Control Policy to coordinate with 
the JIATFS, the Joint Interagency Task Force and ONDCP. Also, 
having been involved in this since about 1981, I have found 
after years and years of trying to get everybody trying to work 
together, DOD, Customs, Coast Guard, all of the different 
agencies that are involved--there are 19 or 20 agencies I think 
involved--and all of that seems to be falling apart. That is 
one of the criticisms that I see here. DOD does not have 
measures of performance, and also the problems with working 
with these other agencies. And then the other thing is that 
nobody seems to be in charge of coordinating. Ms. Salazar, did 
you want to respond?
    Ms. Salazar. Yes. I was looking for that comment because I 
did not read that from the report.
    I believe that there has been more coordination than ever, 
and I haven't been working in counterdrug programs as long as 
you have, but I have seen an increased coordination in the 
programs in part because of the role ONDCP plays, and in part 
from the detection and monitoring aspect--I am not going to 
call it an organization, but we have created a committee, the 
U.S. Interdiction Committee headed by Admiral Loy, that 
basically brings in all the law enforcement community, DOD, the 
JIATFs, SOUTHCOM, anyone who has any role in the detection and 
monitoring. We all sit in a room quarterly and we basically 
have--our job is to not only set priorities but we also have 
something that is called the ``neighbors.'' We have an outline 
each one of these agencies must take to support the counterdrug 
strategy.
    Mr. Mica. I am telling you what I am hearing out there as 
far as overall coordination. Within DOD, GAO has stated here 
today--and I think they have a recommendation--and one of their 
recommendations in their report was that DOD adopt performance 
measures. And you said--someone said that they had started.
    Wasn't that one of your criticisms or recommendations, Mr. 
Ford?
    Mr. Ford. Yes, it was. In fact, I am going to refer back to 
our 1993 report, which has been mentioned a couple of times.
    Mr. Mica. Yes, I finally found out who is responsible for 
the dismantling of the war on drugs. It is GAO.
    Mr. Ford. We apologize, Mr. Chairman. [Laughter].
    Mr. Mica. That is my next question.
    Mr. Ford. I just want to comment, in 1993 we did in fact 
question DOD's involvement; but that was because back then they 
were spending a lot of money and there wasn't anywhere near the 
amount of data available to show what we were getting for the 
amount that they were spending. Some of their operational 
concepts back then are much different than they are today. 
Today we use a lot of queued intelligence, and back in those 
days they didn't.
    As far back as then we indicated that DOD needed to do a 
better job of articulating what we are getting for the 
investment we are making. We are basically making the same 
point today. We want DOD to do a better job of articulating 
what types of outputs and what type of efficiencies, what types 
of effectiveness we are getting for the investment that we are 
making for the DOD dollar.
    I will say that DOD now has made some efforts to try to do 
that. In the past, I would say that they resisted trying to 
measure their effectiveness, but I think now they have some 
efforts underway which might get us there. We recognize that it 
is hard to do, particularly when you are a support 
organization. But the Government as a whole has a mandate to 
report on results, and we think that this is something that DOD 
ought to be able to do. We hope to see down the road some more 
tangible outputs on their part.
    Mr. Mica. Thank you.
    Let me try to fill in a couple of missing links here.
    There was some talk about status of material to Colombia 
and also to the source countries.
    Ms. Salazar, the 506 which would be surplus materials that 
had been promised in 1996, I am told were finally delivered in 
November; is that correct?
    Ms. Salazar. I can't give you the specific details, mainly 
because these types of programs are led by the State Department 
although we provide the assets.
    Mr. Mica. Can you tell me whether those assets have been 
provided? The information I have is 1996, it was finally 
provided, and 60 percent of the 1997 promised assets have been 
provided to date to Colombia. Is that correct?
    Ms. Salazar. Sir, I will have to come back with the 
information.
    Mr. Mica. And can you also give us 1998 and 1999?
    Ms. Salazar. We will talk to our State Department 
colleagues.
    Mr. Mica. I am not interested in State Department. I am 
interest in what DOD has done. We can get information from 
them. I would like to know the status of all of these 506 
equipment promises to Colombia in particular. The others, if 
you can provide that, fine, but Colombia.
    The cost of Mantas seems to have jumped from $43 million. 
Did you tell me $39 in 2000 to 2001 and then to $100 million 
the next year?
    Ms. Salazar. These are for all three of them. Let me give 
you the exact numbers.
    We have received as of this year--for all of the 
facilities, all three, Aruba, Curacao, Manta, we are requesting 
$128.4 in total.
    Mr. Mica. This year?
    Ms. Salazar. In total. For this year we would be requesting 
approximately $38 for FOL Manta in the supplemental. In our 
fiscal year 2001 budget, we would be requesting the rest. I 
have to make a calculation of the difference. For Aruba, 
Curacao--and I believe it comes to $122. I have that number in 
my mind. If you give me 10 minutes, I can provide you the exact 
numbers.
    Mr. Mica. Can you provide that information?
    Ms. Salazar. Yes.
    Mr. Mica. Also there were discussions in addition to 
Antilles and Ecuador, Costa Rica. Is that anticipated in the 
expenditures if an agreement is reached with Costa Rica?
    Ms. Salazar. If we do reach an agreement with Central 
America, we would anticipate that there would be some costs. It 
depends on which one of the FOLs we would be using. So that is 
not included in that figure. Only Antilles and Manta. Correct?
    Ms. Salazar. Correct, sir. For fiscal year 2000 and 2001. I 
believe we may be including that in our fiscal year 2002.
    Mr. Mica. And we have one 10-year agreement now with 
Ecuador, and we still have not reached a conclusion on the 
agreement with Antilles?
    Ms. Salazar. They have concluded the negotiations and 
initialed the agreement, and now it is following the process by 
which they take it to their minister who signs it, and then, it 
is presented to their legislators. We have an initialed 
agreement with the Kingdom of the Netherlands.
    Mr. Mica. Right. Because we met with them in September and 
encouraged them to sign.
    Ms. Salazar. We appreciate that because the negotiations 
went very well.
    Mr. Mica. One of the problems with the Antilles is I am 
told that our planes there are delayed now in the tourist 
season for takeoff, that we don't have runway access when we 
need it. Can you respond to that?
    Ms. Salazar. Sir, can I come back to you. I have not heard 
that statement. I would defer to my Customs colleagues since 
they are flying out of Aruba whether they are having any 
problems of that sort. Part of the infrastructure construction 
is to avoid some of these problems because we acknowledge that 
they are international airports and that they have their 
flights that they need to do.
    Mr. Mica. Finally, despite the White House press release of 
January 11, the $1.6 billion aid package for Colombia still has 
not been presented to us. Do you have any idea when we are 
going to get the details of the package? General Wilhelm did 
give me the DOD--at least his request. I don't know if that was 
all included in the final package. When will we see the final 
package?
    Ms. Salazar. I believe the formal rollout--and I may be 
wrong--is February 7th or 8th. And of course once the rollout 
takes place, we would come in and do the necessary briefings.
    Mr. Mica. Sort of a slow emergency package, but we will get 
there.
    We appreciate your assistance. There is a vote on the floor 
of the House. We will leave the record open, as I said, for 10 
days. We ask also that further questions be submitted to the 
witnesses.
    There being no further business before the subcommittee on 
Criminal Justice, Drug Policy and Human Resources, this meeting 
is adjourned.
    [Note.--The GAO report entitled, ``Drug Control, Assets DOD 
Contributes to Reducing the Illegal Drug Supply Have 
Declined,'' may be found in subcommittee files.]
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6712.040

[GRAPHIC] [TIFF OMITTED] T6712.041

[GRAPHIC] [TIFF OMITTED] T6712.042

[GRAPHIC] [TIFF OMITTED] T6712.043

[GRAPHIC] [TIFF OMITTED] T6712.044


</pre></body></html>
